   May 31, 2005




Infrastructure and Environment

Defense Human Resource Activity Data
Call Submissions and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-076)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
CPMS                  Civilian Personnel Management Service
DA&M                  Director, Administration and Management
DACOWITS              Defense Advisory Committee on Women in the Services
DHRA                  Defense Human Resource Activity
DMDC                  Defense Manpower Data Center
DoD OIG               Department of Defense Office of Inspector General
DWO                   Defense-Wide Organizations
ESGR                  Employer Support of the Guard and Reserve
FVAP                  Federal Voting Assistance Program
HSA                   Headquarters and Support Activities
ICP                   Internal Control Plan
JCSG                  Joint Cross Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
JR&IO                 Joint Requirements and Integration Office
OACT                  Office of the Actuary
OSD                   Office of the Secretary of Defense
PERSEREC              Personnel Security Research Center
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE




                                                                          May 3 1,2005
MEMORANDUM FOR DIRECTOR, DEFENSE HUMAN RESOURCE ACTMTY
SUBJECT Report on Defense Human Resource Activity Data Call Submissions and
                                                    -
        Internal Control Processes for Base Realimcht and Closure 2005
        @sport No. D-2005-076)

        We are providing this report for your infomation and use. The Defense Humau
Resoums Agency provided comments. We considexed               m e a t comments on the
                                                        7
draft of this report when maring the final report. The comv ste text of the comments is
in the Management Comk&ts s&on of the &port.
       We apprdate the courtesies extended to the st&. w t i o n s should be directed
to Ms. Deborah L. Culp nt (703)604-9335@SN 664-9335)or Ms.Lisa M. Such at (703)
604-9284@SN 664-9284). See Appendix C for the report distribution. The team
mcmben are listed inside the back cover.
                              By dbxtkm of the Deputy Inspector General for Auating:


                                                                   ,
                                          ~ichardB. loIlit?e
                                     A s s b t Inspector G e n d
                                       Contract M~magement
                    Department of Defense Office of Inspector General
Report No. D-2005-076                                                                   May 31, 2005

      (Project No. D2004-D000CA-0112.000)

                      Defense Human Resource Activity Data Call
                      Submissions and Internal Control Processes
                        for Base Realignment and Closure 2005

                                       Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel, Defense Human Resource Activity personnel, and anyone interested in the
Base Realignment and Closure (BRAC) process should read this report. The report
discusses the validity, integrity, and supporting documentation of the data provided by
Defense Human Resource Activity for BRAC 2005.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One⎯Policy,
Responsibilities, and Procedures,” April 16, 2003, which states that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was divided into the following data calls: capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criterion Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team
Criterion Number 7 data calls were collectively known as the second data call. We
issued seven site memorandums for the capacity analysis data call and nine site
memorandums for the second data call to summarize the results of our site visits. This
report summarizes issues related to the Defense Human Resource Activity BRAC 2005
process as of February 1, 2005.

The Defense Human Resources Activity is a Defense-Wide Organization∗ responsible for
providing program support, information management, and administrative services to the
DoD Components on human resource matters. The Defense Human Resource Activity
includes: Defense Human Resource Activity Headquarters Staff, Civilian Personnel
Management Service, Defense Advisory Committee on Women in the Services, Defense

∗
    A Defense-Wide Organization is a collective term for 11 Defense Organizations. The 11 organizations
    that comprise the Defense-Wide Organizations are Office of the Secretary of Defense, Joint Chiefs of
    Staff, DoD Office of Inspector General, American Forces Information Service, Defense Human Resource
    Activity, Defense Prisoner of War/Missing Personnel Office, Defense Technology Security
    Administration, DoD Education Activity, Office of Economic Adjustment, TRICARE Management
    Activity, and Washington Headquarters Services.
Manpower Data Center, Employer Support of the Guard and Reserve, Federal Voting
Assistance Program, Joint Requirements and Integration Office, Office of the Actuary,
and Personnel Security Research Center.

Results. We evaluated the validity, integrity, and supporting documentation of the
Defense Human Resource Activity BRAC 2005 data and compliance with the Office of
the Secretary of Defense and the Defense-Wide Organizations internal control plans for
seven sites for the capacity analysis data call, nine sites for the second data call, and
seven sites for the scenario specific data call. The responses provided by the Defense
Human Resource Activity to the BRAC 2005 data calls were generally supported,
complete, and reasonable once corrections were made. However, for the capacity
analysis data call, the Defense Human Resource Activity did not adequately support
5 of 52 responses and for the second data call, the Defense Human Resource Activity did
not complete or adequately support 35 of 277 responses. The Defense Human Resource
Activity did not complete 23 of the 35 second data call responses because the requested
information was unavailable. In addition, 2 Defense Human Resource Activity
components (Employer Support of the Guard and Reserve and Federal Voting Assistance
Program) were responsible for 11 of the 12 remaining unsupported responses. The
incomplete and inadequately supported responses should not materially affect the
BRAC 2005 analysis for Defense Human Resource Activity. Subsequent to our site
visits, the Joint Process Action Team Criterion 7 group requested additional revised
responses from the Defense agencies and Defense-Wide Organizations; we did not
review those responses. As of February 1, 2005, the Defense Human Resource Activity
had responded to and adequately supported two scenario specific data calls.

Finally, the Defense Human Resource Activity data collection process generally
complied with the Office of the Secretary of Defense and Defense-Wide Organizations
internal control plans. Although the Defense Human Resource Activity initially did not
fully comply with applicable internal control plans during the capacity analysis and the
second data calls, the noncompliance issues are not considered material and should not
impact the integrity of the Defense Human Resource Activity data for use in BRAC 2005
analysis.

Management Comments. We provided a draft of this report on May 3, 2005. Although
no comments were required, the Defense Human Resources Activity stated that as of
April 8, 2005, supporting documentation was on hand. Due to time constraints, we did
not review revised responses and additional support after February 1, 2005. (See the
Finding section of the report for a discussion of management comments and the
Management Comments section for the complete text of comments.)




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                             1

Objectives                                                             3

Finding
     Defense Human Resource Activity BRAC 2005 Data Call Submissions
        and Internal Control Processes                                 4

Appendixes
     A. Scope and Methodology                                           9
         Management Control Program Review                             13
     B. Prior Coverage                                                 14
     C. Report Distribution                                            16

Management Comments
     Defense Human Resources Activity’s Comments                       17
Background
           Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
           Closure and Realignment Act of 1990,” as amended, establishes the procedures
           under which the Secretary of Defense may realign or close military installations
           inside the United States and its territories. The law authorizes the establishment
           of an independent Commission to review the Secretary of Defense
           recommendations for realigning and closing military installations. The Secretary
           of Defense established and chartered the Infrastructure Executive Council and the
           Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
           deliberative bodies responsible for leadership, direction, and guidance. The
           deadline for the Secretary of Defense to submit recommendations to the
           independent Commission was May 16, 2005.

           Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
           realigning base structure, was to examine and implement opportunities for greater
           joint activity. The Office of the Secretary of Defense (OSD) established seven
           Joint Cross Service Groups (JCSG): Education and Training, Headquarters and
           Support Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage,
           and Technical. The JCSGs addressed issues that affect common business-
           oriented support functions, examined functions in the context of facilities, and
           developed closure and realignment recommendations based on force structure
           plans of the Armed Forces and on selection criteria. To analyze the issues, each
           JCSG developed data call questions to obtain information about the functions that
           they reviewed.

           BRAC Data Calls. The BRAC 2005 process, mandated for the United States and
           its territories, was divided into the following data calls: capacity analysis,
           supplemental capacity, military value, Cost of Base Realignment Actions
           (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7), and scenario
           specific. The supplemental capacity, military value, COBRA, and JPAT 7 data
           calls were collectively known as the second data call. The Services, Defense
           agencies, and Defense-Wide Organizations (DWO) used either automated data
           collection tools or a manual process to collect data call responses. The Defense
           Human Resource Activity (DHRA) changed from a manual process to the data-
           gathering tool1 for the second data call. Each data call had a specific purpose
           as follows.

                   •   The capacity analysis data call gathered data on infrastructure, current
                       workload, surge requirements, and maximum capacity.

                   •   The supplemental capacity data call clarified inconsistent data
                       gathered during the initial capacity analysis data call.

                   •   The military value data call gathered data on mission requirements,
                       land and facilities, mobilization and contingency, and cost and
                       manpower.


1
    A modified Microsoft Access tool.



                                                 1
                    •    The COBRA data call gathered data to develop costs, savings, and
                         payback (formerly known as return on investments) of proposed
                         realignment and closure actions.

                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios.2

                    •    The scenario specific data call gathered data related to specific
                         scenarios for realignment or closure.

           Department of Defense Office of Inspector General Responsibility. The
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One⎯Policy, Responsibilities, and Procedures,” April 16, 2003,
           requires the Department of Defense Office of Inspector General (DoD OIG ) to
           provide internal control plan (ICP) development and implementation advice, and
           review the accuracy of BRAC data and the data certification processes. In
           addition, the memorandum required DoD OIG personnel to assist the JCSGs and
           DoD Components as needed. This report summarizes the DoD OIG efforts
           related to the DHRA BRAC 2005 process.

           DWO. DWO is a collective term for 11 Defense Organizations.3 DHRA is one
           of the 11 DWOs. The OSD Director, Administration and Management (DA&M)
           led the DWO BRAC 2005 process, and was responsible for collecting and
           submitting BRAC data for the DWOs. OSD DA&M was the primary data
           repository for all DWO data collections and requests, and assembled and
           forwarded BRAC-related data to the OSD BRAC Office and JCSGs.

           ICPs. The DWO ICP outlines management controls designed to ensure the
           accuracy, completeness, and integration of all information and analytical
           processes used in the BRAC 2005 process. Before the BRAC data calls were
           released, OSD required the Services, Defense agencies, and DWOs to prepare an
           ICP that incorporated and supplemented the OSD ICP. The OSD ICP was
           distributed under the Under Secretary of Defense for Acquisition, Technology,
           and Logistics’ memorandum “Transformation Through Base Realignment and
           Closure (BRAC 2005) Policy Memorandum One⎯Policy, Responsibilities, and
           Procedures,” April 16, 2003. OSD DA&M prepared the “Defense-Wide
           Organizations Internal Control Plan for the 2005 Base Realignment and Closure
           Process,” dated January 15, 2004. The overall DWO ICP and Appendixes L and
           M of the DWO ICP apply to the 11 DWOs. Each DWO was responsible for
           preparing an organization-specific appendix to supplement the overall DWO ICP;
           Appendix H specifically applied to DHRA.

           DHRA. The DHRA is a DoD field activity under the authority, direction, and
           control of the Under Secretary of Defense for Personnel and Readiness. With

2
    A scenario is a description of one or more potential realignment or closure actions identified for formal
    analysis by either a JCSG or a Military Department.
3
    The 11 organizations that comprise the DWOs are OSD, Joint Chiefs of Staff, DoD OIG, American
    Forces Information Service, Defense Human Resource Activity, Defense Prisoner of War/Missing
    Personnel Office, Defense Technology Security Administration, DoD Education Activity, Office of
    Economic Adjustment, TRICARE Management Activity, and Washington Headquarters Services.



                                                        2
    Headquarters in Arlington, Virginia, DHRA provides program support,
    information management, and administrative services to DoD on human resource
    matters. DHRA is composed of DHRA Headquarters and eight components:

           •   Civilian Personnel Management Service (CPMS) (Arlington,
               Virginia);

           •   Defense Advisory Committee on Women in the Services
               (DACOWITS) (Arlington, Virginia);

           •   Defense Manpower Data Center (DMDC)-East (Arlington, Virginia)
               and DMDC-West (Seaside, California);

           •   Employer Support of the Guard and Reserve (ESGR) (Arlington,
               Virginia);

           •   Federal Voting Assistance Program (FVAP) (Arlington, Virginia);

           •   Joint Requirements and Integration Office (JR&IO) (Arlington,
               Virginia);

           •   Office of the Actuary (OACT) (Arlington, Virginia); and

           •   Personnel Security Research Center (PERSEREC) (Monterey,
               California).

    We validated responses for DHRA Headquarters and six components for the
    capacity analysis data call and for DHRA Headquarters and eight components for
    the second data call. See Appendix A for a list of sites and questions reviewed
    for each data call.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DHRA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DHRA complied with
    the OSD and DWO ICPs. This report is one in a series on data call submissions
    and internal control processes for BRAC 2005. See Appendix A for a discussion
    of the scope and methodology and our review of the management control
    program. See Appendix B for prior coverage related to the objectives.




                                       3
           Defense Human Resource Activity BRAC
           2005 Data Call Submissions and Internal
           Control Processes
           The responses provided by DHRA to the BRAC 2005 data calls were
           generally supported, complete, and reasonable once corrections were
           made. For the capacity analysis data call, DHRA did not adequately
           support 5 of 52 responses. For the second data call, DHRA did not
           complete or adequately support 35 of 277 responses. DHRA personnel
           were unable to complete 23 of the 35 inadequately supported second data
           call responses because the requested information was unavailable. In
           addition, two DHRA components (ESGR and FVAP) were responsible for
           11 of the 12 remaining unsupported responses. The incomplete and
           inadequately supported responses should not materially affect the
           BRAC 2005 analysis for DHRA. Finally, DHRA generally complied with
           the ICPs and the DWO ICP properly incorporated and supplemented the
           OSD ICP. However, DHRA personnel did not always mark and secure
           BRAC documentation as called for in the applicable ICPs. Although
           DHRA did not fully comply with applicable ICPs during the capacity
           analysis and second data calls, the noncompliances with the ICPs were not
           considered material and should not impact the integrity of the DHRA data
           for use in BRAC 2005 analysis.


DHRA BRAC 2005 Data Call Submissions
    The BRAC 2005 data reported by DHRA were generally supported, complete,
    and reasonable once corrections were made. For the capacity analysis, second,
    and scenario specific data calls, DHRA provided either an answer or a “Not
    Applicable” response to the questions. A “Not Applicable” response was
    provided when either a DWO or DHRA BRAC official determined that the
    question did not apply to DHRA. We compared DHRA responses to supporting
    documentation to ensure accuracy and reviewed the “Not Applicable” responses
    for reasonableness. We did not verify that the DHRA responses were in the OSD
    Database for the capacity analysis or second data calls.

    Capacity Analysis Data Call. The responses provided by DHRA to the capacity
    analysis data call were generally supported, complete, and reasonable once
    corrections were made. OSD DA&M directed DHRA to answer 75 of the 752
    capacity analysis data call questions that were identified as applicable to the
    DWOs by HSA JCSG. OSD DA&M also directed DHRA to review the
    remainder of the 752 questions to determine if any of the other questions were
    applicable to DHRA.

    DHRA reviewed the questions and determined that 52 of the 75 questions were
    not applicable to DHRA. DHRA Headquarters targeted the remaining




                                       4
          23 questions to DHRA Headquarters,4 and 6 of its component offices: CPMS,
          DMDC-East, DMDC-West, ESGR, FVAP, and PERSEREC. As a whole, DHRA
          provided 52 responses to the 23 questions. (See Appendix A for a list of sites and
          questions reviewed.)

          We evaluated the responses and supporting documentation at DHRA
          Headquarters and at six component offices. We initially identified responses that
          were either partially or inadequately supported. As a result of our site visits,
          DHRA revised responses and provided supporting documentation to correct the
          responses. We verified and concurred with the changes that were made, but did
          not verify that the changes were made to the OSD Database. For the capacity
          analysis data call, 47 DHRA responses were supported, complete, and reasonable;
          and the “Not Applicable” responses were reasonable. However, we identified
          five responses at four sites that were not adequately supported and remained
          uncorrected.

                   •   DHRA Headquarters. Two questions requesting personnel
                       information were not adequately supported as of October 22, 2004.

                           − Question number 461 required information related to the
                             number of authorized personnel within the Washington, D.C.,
                             area. DHRA did not have adequate supporting documentation
                             for the number of civilian personnel in administrative space.

                           − Question number 462 required information related to leased
                             administrative space and the number of authorized personnel
                             within the Washington, D.C., area. DHRA did not have
                             adequate supporting documentation for the number of military
                             officers ranked O-4 through O-6, enlisted military personnel,
                             and other assigned or detailed personnel.

                   •   CPMS. Question number 319 requested network information for
                       communication and information technology, and subscriber
                       information. As of April 8, 2005, CPMS had not provided adequate
                       documentation to support its response for subscriber information.

                   •   ESGR. Question number 462 requested the number of authorized
                       personnel and usable square footage. As of July 29, 2004, ESGR had
                       not provided adequate documentation to support its response for the
                       number of authorized personnel.

                   •   FVAP. Question number 462 requested the number of authorized
                       personnel and usable square footage. As of April 8, 2005, FVAP had
                       not provided adequate documentation to support its response for the
                       number of authorized personnel.

          Second Data Call. The responses provided by DHRA to the second data call
          were generally supported, complete, and reasonable once corrections were made.
          OSD DA&M provided DHRA with JPAT 7 question numbers 1400 through 1417,
4
    DHRA Headquarters’ responses included data from three additional component offices: DACOWITS,
    JR&IO, and OACT.



                                                  5
           1420, and 1421;5 COBRA question numbers 1500 through 1507; HSA JCSG
           military value question numbers 1900 through 1982; and HSA JCSG
           supplemental capacity question numbers 4069 through 4105. DHRA
           Headquarters reviewed the targeted data call questions and further targeted those
           questions to DHRA Headquarters and eight component offices. DHRA reviewed
           the questions and identified questions that were not applicable to DHRA. We did
           not make a determination whether the responses to HSA JCSG military value
           questions 1907 and 1908 were supported, complete, and reasonable.6 DHRA
           Headquarters and its components responded to 38 questions. As a whole, DHRA
           provided 277 responses to the 38 questions. (See Appendix A for a list of sites
           and questions reviewed.)

           We evaluated the responses and supporting documentation for DHRA
           Headquarters and for eight component offices; we identified responses that were
           either partially or inadequately supported. As a result of our site visits, DHRA
           revised responses and provided supporting documentation to correct the
           responses. We verified and concurred with the changes that were made, but did
           not verify that the changes were made to the OSD Database.

           DHRA responses to 38 second data call questions were generally supported,
           complete, and reasonable, and the “Not Applicable” responses were reasonable.
           However, DHRA did not complete and adequately support three JPAT 7
           questions for the second data call. Further, three of the eight DHRA components
           that responded did not provide adequate supporting documentation for 12 of the
           remaining responses.

                   JPAT 7 Questions. DHRA responses to the JPAT 7 questions were
           properly supported, complete, and reasonable, except for its responses to question
           numbers 1405 through 1407, which were partially answered. The three JPAT 7
           questions requested information on educational resources in the local community.
           However, DHRA was not always able to obtain requested information such as
           teacher certification percentage, average composite American College Test score,
           availability of technical vocational schools, and facility capacity because the
           requested information was not always available. As a result, the responses to
           JPAT 7 question number 1405 was incomplete for all nine DHRA sites, and
           question numbers 1406 and 1407 were incomplete for seven DHRA sites (DHRA
           Headquarters, CPMS, DMDC-East, ESGR, FVAP, JR&IO, and OACT).
           Subsequent to our site visits in August 2004, the JPAT 7 group provided
           additional guidance to the Services, Defense agencies, and DWOs on how to
           obtain the requested responses to include those related to education resources in
           the local community and requested updated responses. We did not verify the
           resubmissions; therefore, the issues related to these questions may no longer
           be valid.

                  Unsupported Responses. Two DHRA components, ESGR and FVAP,
           were responsible for a disproportionate share (11 of 12) of the discrepancies not
5
    The JPAT 7 group replaced questions 1418 and 1419 with questions 1420 and 1421.
6
    Questions 1907 and 1908 requested information on the number of meetings between an organization’s
    senior officials within the Washington, D.C., area and meetings between an organization’s senior officials
    and members of Congress or their staffs. The DoD OIG determined that the supporting documentation,
    such as Microsoft Outlook calendars, could not be verified.



                                                       6
     related to the JPAT 7 questions. The remaining discrepancy was a partial
     response to HSA JCSG military value question number 1917 by CPMS.

                    ESGR. The responses for ESGR to the second data call questions
            were not adequately supported for 8 of 15 non-JPAT 7 responses. ESGR
            did not provide adequate support for square footage as requested by
            COBRA question number 1501, personnel and square footage for HSA
            JCSG military value question numbers 1905 and 1916, and for HSA JCSG
            supplemental capacity question numbers 4099 through 4103.

                   FVAP. The responses for FVAP to the second data call questions
            were not always complete and not adequately supported for three of seven
            non-JPAT 7 responses. FVAP did not provide adequate support for
            square footage as requested by COBRA question number 1501 or for HSA
            JCSG supplemental capacity question numbers 4099 and 4103.

                   CPMS. Responses for CPMS were supported, complete, and
            reasonable except for HSA JCSG military value question number 1917.
            Question number 1917 was partially unsupported because of the non-
            availability of a lease agreement for the Denver, Colorado, location.

     Scenario Specific Data Call. The DHRA provided reasonable responses and
     adequate support for the responses to two scenario data calls. We evaluated the
     responses and support at DHRA Headquarters and six of its component offices,
     which included CPMS, DMDC-East, ESGR, FVAP, JR&IO, and OACT. As a
     result of our site visits, DHRA sites revised responses and provided additional
     supporting documentation to correct the issues. We verified and concurred with
     the changes as of February 1, 2005.


Internal Control Processes
     DHRA BRAC officials generally complied with the ICPs and the DWO ICP
     properly incorporated and supplemented the OSD ICP. However, during the
     capacity analysis data call and the second data call, we identified several
     noncompliance issues such as unsecured and improperly marked documentation.
     To evaluate compliance with the ICPs, we ensured that the DWO ICP properly
     incorporated and supplemented the OSD ICP and evaluated whether DHRA
     BRAC officials completed nondisclosure agreements and properly marked,
     safeguarded, and maintained BRAC data and documentation.

     Completeness of ICPs. The DWO ICPs outlined management controls designed
     to ensure accuracy and completeness and provide accountability for DHRA
     information used in the BRAC 2005 process. The ICPs established BRAC 2005
     responsibilities of DHRA organizations and control mechanisms to safeguard
     DHRA BRAC information. Specifically, the ICPs included direction on the
     completion of nondisclosure agreements; and the collection, marking,
     safeguarding, and certification of BRAC data.

     Compliance with ICPs. DHRA sites were generally compliant with the
     applicable ICPs. The site data collection processes for the capacity analysis,


                                          7
    second, and scenario specific data calls generally complied with applicable ICPs.
    However, during the capacity analysis data call and the second data call we
    identified several noncompliance issues such as unsecured and inadequately
    marked documentation. When notified of the noncompliances, DHRA personnel
    either corrected the noncompliances during our site visits or agreed to take
    corrective actions after our departure. We consider the noncompliance with ICP
    procedures to be immaterial and should not impact the integrity of DHRA data.


Conclusion
    The responses provided by DHRA to the BRAC 2005 data calls were generally
    supported, complete, and reasonable once corrections were made. However, for
    the capacity analysis data call, DHRA did not provide adequate supporting
    documentation for 5 of 52 responses. In addition, for the second data call, DHRA
    responses to JPAT 7 question numbers 1405 through 1407 were incomplete and
    the responses from three DHRA components were not adequately supported.
    Subsequent to our site visits, the JPAT 7 group provided additional guidance for
    responding to the JPAT 7 questions and requested revised responses. We did not
    verify the revised responses; therefore, the issues related to the JPAT 7 questions
    may no longer be valid. We also identified instances of noncompliance with the
    ICPs, such as unsecured and inadequately marked documentation that DHRA
    personnel corrected or agreed to correct.

    We discussed the identified ICP noncompliances and unsupported responses with
    DHRA management. DHRA management concurred with our findings. We
    determined that the ICP noncompliances and lack of supporting documentation
    are immaterial and will not impact the reliability and integrity of the DHRA
    BRAC 2005 data. DHRA Headquarters agreed to obtain support for the questions
    that lack supporting documentation. However, due to time constraints, we did not
    verify any revised responses or additional supporting documentation that DHRA
    may have obtained.


Management Comments on the Finding and Audit Response
    Management Comments. The DHRA Certifying Officer stated that as of
    April 8, 2005, supporting documentation for the responses to the data call
    questions was available.

    Audit Response. The DHRA Certifying Officer’s comments did not address
    whether DHRA provided additional documentation that would correct the
    inadequately supported responses identified in the report. DHRA should ensure
    that adequate supporting documentation is in place to address the identified
    deficiencies. Due to time constraints, we did not review revised responses and
    additional support after February 1, 2005.




                                         8
Appendix A. Scope and Methodology
           We evaluated the validity, integrity, and supporting documentation of DHRA
           BRAC 2005 data. The evaluation included comparing question responses to
           supporting documentation and reviewing “Not Applicable” responses to
           determine whether the responses were reasonable. Questions had either an
           answer or a “Not Applicable” response (for questions determined not to apply to a
           DHRA site). We did not verify that DHRA responses were submitted to the OSD
           Database. We ensured that the DWO ICP incorporated and supplemented the
           OSD ICP. We evaluated site data collection processes to determine whether they
           complied with the ICPs to include reviewing the completion of nondisclosure
           agreements, and the collection, marking, safeguarding, and maintenance of BRAC
           data. In addition, we interviewed the personnel responsible for certifying the
           responses to the data call questions. Due to time constraints, we did not review
           revised responses and additional support after February 1, 2005.

           Capacity Analysis Data Call. OSD DA&M directed DHRA to answer 75 of
           the 752 capacity analysis data call questions, which the HSA JCSG identified as
           applicable to DWOs. OSD DA&M also directed the DHRA trusted agents to
           review the remainder of the questions to determine their applicability to DHRA
           specific components. We did not validate the DHRA Headquarters selection
           process for determining the applicability of the questions. DHRA reviewed the
           questions and determined that 52 of the 75 questions were not applicable to
           DHRA.

           DHRA Headquarters targeted the remaining 23 questions to DHRA
           Headquarters,* and six of its component offices: CPMS, DMDC-East, DMDC-
           West, ESGR, FVAP, and PERSEREC. As a whole, DHRA provided 52
           responses to the 23 questions. We issued seven site memorandums to summarize
           the results of each of the site visits. Specifically, we reviewed the responses and
           support for the following questions for the identified sites between April 2004 to
           May 2004.




*
    DHRA Headquarters’ responses included data from three additional component offices: DACOWITS,
    JR&IO, and OACT.



                                                   9
              Table 1. Capacity Analysis Data Call Questions Reviewed

     DHRA Site                                 Question Number
                                   Answered                     Not Applicable
DHRA Headquarters       446, 461, 462, 466, 468, and    464
Arlington, Virginia     471
CPMS                    311, 314, 316, 318-322, 327,    313, 315, 323-326, 328, 329,
Arlington, Virginia     446, 462, and 466               464, and 582
DMDC-East               314, 316, 319-322, 326-329,     315, 317, 318, and 323-325
Arlington, Virginia     461, 462, 464, and 466
DMDC-West               314, 316-322, 325-329, and      315, 323, and 324
Seaside, California     582
ESGR                    462 and 466                     464
Arlington, Virginia
FVAP                    462 and 466                       316 and 464
Arlington, Virginia
PERSEREC                311 and 313                       316
Monterey, California


       Second Data Call. The JCSGs provided DHRA Headquarters with the second
       data call questions. Specifically, DHRA received HSA JCSG military value
       question numbers 1900 through 1982; HSA JCSG supplemental capacity question
       numbers 4069 through 4105; COBRA question numbers 1500 through 1507; and
       JPAT 7 question numbers 1400 through 1417, 1420, and 1421. DHRA
       Headquarters reviewed the targeted data call questions and further targeted those
       questions to DHRA Headquarters, and eight of its component offices. DHRA
       Headquarters received 68 questions, CPMS received 59 questions, DMDC-East
       received 73 questions, DMDC-West received 73 questions, ESGR received
       46 questions, FVAP received 43 questions, JR&IO received 71 questions, OACT
       received 71 questions, and PERSEREC received 72 questions.

       We did not validate the DHRA Headquarters’ selection process. However,
       DHRA complied with the requirement to have all stand-alone facilities and host
       installations, which included leased facilities, answer JPAT 7 and COBRA data
       call questions, except for the COBRA questions for JR&IO which were included
       in the DHRA Headquarters submission. DHRA Headquarters and eight of its
       component offices were in leased facilities.

       In addition to reviewing the second data call responses, we followed up on
       outstanding issues from the initial capacity analysis data call from July 2004 to
       August 2004. We evaluated the following initial capacity analysis questions for
       the following sites:

              •   DHRA Headquarters: question numbers 446, 461, 462, 466, 468, and
                  471;

              •   FVAP: question numbers 462 and 466; and



                                           10
       •   ESGR: question number 462.

However for the second data call, we did not:

       •   Verify the accuracy of supporting documentation for HSA JCSG
           military value question numbers 1907 and 1908 because DoD OIG
           determined that the supporting documentation, such as Microsoft
           Outlook calendars, could not be verified, except for question 1908 for
           DMDC-West, Seaside, California.

       •   Validate the responses to JPAT 7 question numbers 1420 and 1421 for
           DMDC-West and PERSEREC. The JPAT 7 group decided to replace
           JPAT 7 question numbers 1418 and 1419 with JPAT 7 question
           numbers 1420 and 1421. These sites did not receive JPAT 7 question
           numbers 1420 and 1421 before our site visits concluded. Therefore,
           we did not review the accuracy and supportability of the responses.
           We did, however, evaluate the responses to JPAT 7 question numbers
           1420 and 1421 for all other DHRA sites.

       •   Verify revised responses to JPAT 7 questions that occurred after our
           site visits.

We issued nine site memorandums to summarize the results for DHRA
Headquarters and eight component offices. Specifically, we reviewed the
responses and support for the following questions for the identified sites.




                                    11
              Table 2. Second Data Call Questions Reviewed

      DHRA Site                              Question Number
                                  Answered                   Not Applicable
DHRA Headquarters       1400-1417, 1420, 1421, 1501, 1500, 1502-1504, 1506, 1507,
Arlington, Virginia     1505, 1905, 1907-1911, 1913, 1900, 1904, 1906, 1912, 1915,
                        1914, and 4099-4103           1917-1927, and 1947-1957
CPMS                    1400-1417, 1420, 1421, 1501, 1500, 1502-1504, 1506, 1507,
Arlington, Virginia     1505, 1905, 1907-1911, 1913- 1900, 1904, 1912, 1918, 1919,
                        1917, and 4099-4103           1921, 1925-1927, 1947, 1949,
                                                      1950, 1953, 1956, and 1957
DMDC-East               1400-1417, 1420, 1421, 1501, 1500, 1502-1504, 1506, 1507,
Arlington, Virginia     1505, 1907-1911, 1913-1916, 1900, 1904-1906, 1912, 1917-
                        and 4099-4103                 1927, 1947-1957, 4079-4081,
                                                      and 4096
DMDC-West               1400-1417, 1420, 1421, 1501, 1500, 1502-1507, 1900, 1904-
Seaside, California     1907, 1908, 1911, 1914,       1906, 1909, 1910, 1912, 1913,
                        1916, and 1917                1915, 1918-1927, 1947-1957,
                                                      4079-4081, 4096, and 4099-
                                                      4103
ESGR                    1400-1417, 1420, 1421, 1501, 1500, 1502-1507, 1914, 1917,
Arlington, Virginia     1905, 1907-1911, 1913, 1915, 4072, and 4074
                        1916, and 4099-4103
FVAP                    1400-1417, 1420, 1421, 1501, 1500, 1502-1504, 1506, 1507,
Arlington, Virginia     1505, 1907, 1908, 1911,       1905, 1909, 1910, 1913-1917,
                        4099, and 4103                4072, and 4074
JR&IO                   1400-1417, 1420, 1421, 1907- 1500-1507, 1900, 1904-1906,
Arlington, Virginia     1911, 1913, and 1915          1912, 1914, 1916-1927, 1947-
                                                      1957, 4072, 4074, and 4099-
                                                      4103
OACT                    1400-1417, 1420, 1421, 1505, 1500-1504, 1506, 1507, 1900,
Arlington, Virginia     1907, 1908, 1911, 1915, and   1904-1906, 1909, 1910, 1912-
                        4099-4103                     1914, 1916-1927, 1947-1957,
                                                      4072, and 4074
PERSEREC                1400-1417, 1420, 1421, 1501, 1500, 1502-1504, 1506, 1507,
Monterey, California    and 1505                      1900, 1904-1910, 1912-1927,
                                                      1947-1957, 4079-4081, 4096,
                                                      and 4099-4103


       Scenario Specific Data Call. As of February 1, 2005, DHRA Headquarters had
       received two scenario specific data calls from HSA JCSG and submitted
       responses. Specifically, DHRA received HSA JCSG scenario data calls HSA-
       0053 and HSA-0106. The scenario specific data calls were answered by DHRA
       Headquarters and six component offices: CPMS, DMDC-East, ESGR, FVAP,


                                        12
    JR&IO, and OACT. We reviewed the scenario specific data call responses for
    reasonableness and adequacy of support for DHRA Headquarters and its six
    component offices; however, DHRA Headquarters had not certified its responses
    during our site visit.

    We performed this audit from February 2004 through May 2005 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not test the accuracy of the
    computer-processed data used to support answers to data call questions because
    of time constraints. Further, we did not review the data gathering tool used by
    DHRA. Potential inaccuracies in the data could impact the results. However, the
    BRAC data were certified as accurate and complete to the best of the certifiers’
    knowledge and belief.

    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Management of Federal Real Property and DoD Support
    Infrastructure Management high-risk areas.


Management Control Program Review
    We did not review the DHRA management control program because its
    provisions were not deemed applicable to the one-time data collection process.
    However, we evaluated the DHRA management controls for preparing,
    submitting, documenting, and safeguarding information associated with the
    BRAC 2005 data calls, as directed by the applicable ICPs. Specifically, we
    reviewed procedures that DHRA used to develop, submit, and document its data
    call responses. During the capacity analysis data call and the second data call, we
    identified several noncompliance issues such as unsecured and inadequately
    marked documentation. When notified of the noncompliances, DHRA personnel
    either corrected the noncompliances during our site visits or agreed to take
    corrective actions after our departure. We consider the noncompliance with ICP
    procedures to be immaterial and should not impact the integrity of DHRA data.
    Management controls were adequate as they applied to the audit objective. (See
    finding for additional details.)




                                        13
Appendix B. Prior Coverage
   During the last 5 years, the following DoD Inspector General memorandums have
   been issued related to DHRA BRAC 2005.

   Site Memorandums

   DoD IG Memorandum, “Audit on the Second Data Call Submission From
   Defense Actuary Services to Defense Human Resources Activity for Base
   Realignment and Closure 2005,” December 2, 2004

   DoD IG Memorandum, “Audit on the Second Data Call Submission From Joint
   Requirements and Integration Office to Defense Human Resources Activity for
   Base Realignment and Closure 2005,” December 2, 2004

   DoD IG Memorandum, “Audit on the Second Data Call Submission From
   Civilian Personnel Management Service to Defense Human Resources Activity
   for Base Realignment and Closure 2005,” December 1, 2004

   DoD IG Memorandum, “Audit on the Second Data Call Submission From
   Defense Human Resources Activity Headquarters for Base Realignment and
   Closure 2005,” December 1, 2004

   DoD IG Memorandum, “Audit on the Second Data Call Submission From
   Defense Manpower Data Center East to Defense Human Resources Activity for
   Base Realignment and Closure 2005,” December 1, 2004

   DoD IG Memorandum, “Audit on the Second Data Call Submission From
   Defense Manpower Data Center West to Defense Human Resources Activity for
   Base Realignment and Closure 2005,” December 1, 2004

   DoD IG Memorandum, “Audit on the Second Data Call Submission From
   Defense Personnel Research Center to Defense Human Resources Activity for
   Base Realignment and Closure 2005,” December 1, 2004

   DoD IG Memorandum, “Audit on the Second Data Call Submission From
   Employer Support for the Guard and Reserve to Defense Human Resources
   Activity for Base Realignment and Closure 2005,” December 1, 2004

   DoD IG Memorandum, “Audit on the Second Data Call Submission From Federal
   Voting Assistance Program to Defense Human Resources Activity for Base
   Realignment and Closure 2005,” December 1, 2004

   DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
   From Defense Human Resources Activity Headquarters for Base Realignment
   and Closure 2005,” June 16, 2004

   DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
   From Civilian Personnel Management Service to Defense Human Resources
   Activity Headquarters for Base Realignment and Closure 2005,” June 10, 2004


                                     14
DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Employer Support of the Guard and Reserve to Defense Human Resources
Activity Headquarters for Base Realignment and Closure 2005,” June 10, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Federal Voting Assistance Program to Defense Human Resources Activity
Headquarters for Base Realignment and Closure 2005,” June 3, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Manpower Data Center Rosslyn, Virginia to Defense Human
Resources Activity Headquarters for Base Realignment and Closure 2005,”
May 24, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Manpower Data Center Seaside, California to Defense Human
Resources Activity Headquarters for Base Realignment and Closure 2005,”
May 12, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Personnel Security Research Center Monterey to Defense Human
Resources Activity Headquarters for Base Realignment and Closure 2005,”
May 12, 2004




                                 15
Appendix C. Report Distribution

Office of the Secretary of Defense
     Director, Base Realignment and Closure (Installations and Environment)

     Director, Defense Human Resource Activity


Non-Defense Federal Organizations
     Government Accountability Office




                                        16
Defense Human Resources Activity’s Comments
                                              Final Report
                                              Reference




                                              Revised
                                              page 5




                     17
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Deborah L. Culp
Lisa M. Such
Pamela S. Varner
Kandy T. Adams
Jeffrey A. Kahn
Marcia L. Kilby
John G. LaBelle
Justin C. Husar
Meredith H. Johnson
